1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 20-923-cr
UNITED STATES OF AMERICA,

Appellant,

v.
CONSTANTIN CHEESE, ANDRE BARNABY, BRANDON
DARBY, ANTONIO DAVIS, AVERY MITCHELL,
NAHJUAN PERRY, PIERRE RAYMOND, JAMES
ROBERSON, AND SHAMEL SIMPKINS,
Defendants-Appellees.
Argued:
Decided:

December 4, 2020
June 7, 2021

Appeal from the United States District Court for
the Eastern District of New York.
Nicholas G. Garaufis, District Judge.
(18 Cr. 33 (NGG))

Before: SACK, CHIN, and LOHIER, JR., Circuit
Judges.
SUMMARY ORDER:
The government appeals from an order of the
district court, entered February 12, 2020,

2a
dismissing four counts of a superseding indictment
charging the use of firearms in furtherance of a
crime of violence in violation of 18 U.S.C. § 924(c).
On appeal, the government argues that the
district court erred in dismissing the four counts
because attempted Hobbs Act robbery qualifies as
a predicate “crime of violence” under 18 U.S.C.
§ 924(c). We assume the parties’ familiarity with
the underlying facts, the procedural history of the
case, and the issues on appeal.
On July 11, 2019, a grand jury returned a
superseding
indictment
against
seventeen
defendants,
including
defendant-appellee
Constantin Cheese. The superseding indictment
charged the defendants—members and associates
of the Queens-based Makk Balla Brims set of the
Bloods gang—with, inter alia, attempted Hobbs
Act robberies and violations of 18 U.S.C. § 924(c),
which prohibits using a firearm in furtherance of a
crime of violence.
On August 7, 2019, Cheese filed a motion to
dismiss Count Twelve of the superseding
indictment, which charged him with using a
firearm in furtherance of a crime of violence in
violation of 18 U.S.C. § 924(c)—specifically, in
furtherance of an attempted Hobbs Act robbery of
a home in Port Washington, New York on October
16, 2017. Cheese argued that because attempted
Hobbs Act robbery is not a “crime of violence”
under 18 U.S.C. § 924(c), the government had
failed to charge him with the requisite predicate.
Subsequently,
defendants-appellees
Andre
Barnaby, Nahjuan Perry, Brandon Darby, and

3a
Pierre Raymond filed letters joining Cheese’s
motion as applied to their respective 18 U.S.C.
§ 924(c) counts—Counts Eight, Ten, and Fourteen
of the superseding indictment—also predicated on
attempted Hobbs Act robberies. On February 12,
2020, the district court held that attempted Hobbs
Act robbery is not a “crime of violence” under 18
U.S.C. § 924(c) and dismissed Counts Eight, Ten,
Twelve, and Fourteen of the superseding
indictment as to defendants-appellees Constantin
Cheese, Andre Barnaby, Brandon Darby, Antonio
Davis, Avery Mitchell, Nahjuan Perry, Pierre
Raymond, James Roberson, Shawn Silvera,
Shamel Simpkins, and Kimberly Thompson. This
appeal followed.1
Whether an offense is a “crime of violence”
under 18 U.S.C. § 924(c) is a question of law that
this Court decides de novo. United States v. Scott,
990 F.3d 94, 104 (2d Cir. 2021) (en banc).
Subsequent to the district court’s order, this Court
held in United States v. McCoy that “an attempt
to commit Hobbs Act robbery . . . categorically
qualifies as a crime of violence.” 995 F.3d 32, 55
(2d Cir. 2021) (internal quotation marks and
alterations omitted). Accordingly, Counts Eight,
Ten, Twelve, and Fourteen of the superseding
indictment were properly predicated, respectively,
on Counts Seven, Nine, Eleven, and Thirteen
alleging attempted Hobbs Act robberies. We
therefore conclude that the district court erred in

The other ten defendants-appellees did not separately
brief the appeal but joined in Cheese’s brief.
1

4a
dismissing the 18 U.S.C. § 924(c) counts as to the
defendants-appellees.
For the foregoing reasons, we VACATE the
order of the district court and REMAND the
matter for further proceedings.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

5a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
Criminal No. 18 Cr. 33 (NGG)
UNITED STATES OF AMERICA

v.
CONSTANTIN CHEESE,
Defendant.

Signed: February 12, 2020
MEMORANDUM & ORDER

NICHOLAS G. GARAUFIS, United States District
Judge.
Constantin Cheese is charged in Counts Eleven
and Twelve of a Fourteen-count indictment with
attempted Hobbs Act robbery in violation of 18
U.S.C. § 1951 (Count Eleven) and knowingly and
intentionally using a firearm in furtherance of a
crime of violence in violation of 18 U.S.C.
§ 924(c)(1)(A) (Count Twelve). The charges arise
from Cheese’s alleged participation in a home

6a
invasion in Port Washington, New York. Cheese
moves this court to dismiss Count Twelve of the
indictment on the grounds that attempted Hobbs
Act robbery is not a crime of violence under United
States v. Davis, 139 S. Ct. 2319 (2019). (See Def.
Mot. to Dismiss Count Twelve (“Mot.”) (Dkt. 189);
Gov’t Opp’n to Mot. to Dismiss Count Twelve
(“Opp.”) (Dkt. 216); Def. Resp. in Support re: Mot.
to Dismiss (“Reply”) (Dkt. 220).) The court held
oral argument on the motion on December 19,
2019. (Dec. 19, 2019 Min. Entry (Dkt. 249).) Since
that time, Cheese and the Government have filed
additional letters to bring supplemental authority
to the court’s attention. (See Def. Letter re: Suppl.
Auth. (“Def. Suppl.”) (Dkt. 250); Gov’t Letter re:
Supp. Auth. (“Gov’t Suppl.”) (Dkt. 266); Def. Resp.
re: Supp. Auth. (“Def. Suppl. Resp.”) (Dkt. 267).)
In addition, several of Cheese’s co-defendants have
filed letters joining in Cheese’s motion and asking
the court to expand the motion to include Counts
Eight and Fourteen of the Superseding
Indictment, which similarly use attempted Hobbs
Act robbery as a Section 924(c) predicate. (See
Dkts. 261-263). Count Ten likewise relies on
attempted Hobbs Act robbery as a Section 924(c)
predicate, and the court considers all three
Counts—Eight, Ten, and Fourteen—in tandem
with Cheese’s motion to dismiss Count Twelve.
Cheese also moves for severance under both the
Federal Rules of Criminal Procedure and the
Speedy Trial Act. (See Mot. at 11.) Finally, Cheese
moves, pro se, to dismiss the indictment in its
entirety. (See Def. Pro Se Mot. to Dismiss
Indictment (“Pro Se Mot.”) (Dkt. 153); Def. Am.

7a
Pro Se Mot. to Dismiss Indictment (“Am. Pro Se
Mot.”) (Dkt. 192).) Based on the following reasons,
Defendant’s motion to dismiss Count Twelve of the
indictment is GRANTED, and Counts Eight, Ten,
Twelve, and Fourteen are struck as to all
Defendants. Defendant’s motion to sever is
DENIED and Defendant’s pro se motions to
dismiss the indictment are DENIED.
I. BACKGROUND
Cheese is alleged to have participated in an
attempted robbery of a home in Port Washington,
New York on October 16, 2017. (See Compl. (Dkt.
1).)1 The government alleges Cheese and codefendants traveled to the home in question by car
under the belief that it was a stash house
containing both drugs and money. (Id.) Once there,
Cheese and two co-defendants entered the home
while two other co-defendants waited in the car.
(Id.) While inside, Cheese and his co-conspirators
allegedly brandished a weapon, demanded both
The original indictment, which was filed on January 18,
2017, charged only Cheese and two other co-defendants—
Samiek Hytmiah and Desmond Murchison. (See Original
Indictment (Dkt. 17).) Murchison entered a plea of guilty on
March 29, 2019. (Mar. 29, 2019 Min. Entry (Dkt. 70).) On
July 11, 2019, the Government filed a Superseding
Indictment that, among other things, added charges against
16 new defendants, including a charge for racketeering
conspiracy with 12 racketeering acts against 11 of Cheese’s
co-defendants. (See Superseding Indictment (Dkt. 71).) One
day later, Hytmiah entered a plea of guilty. (July 12, 2019
Min. Entry (Dkt. 168).)
1

8a
narcotics and money, and restrained the
individuals inside the house with zip-ties. (Id.)
The plan allegedly collapsed when one of the
victims freed himself from the zip-ties. (Id.)
Cheese and his co-defendants fled the house. (Id.)
II. CHEESE’S
S MOTION TO DISMISS COUNT
TWELVE
Cheese moves this court to dismiss Count
Twelve of the indictment, which charges Cheese
and four of his co-defendants with possession and
brandishing of a firearm in furtherance of a “crime
of violence” in violation of Section 924(c). 18
U.S.C. § 924(c)(1)(A). Because the reasoning
underlying the Supreme Court’s decision in United
States v. Davis, 139 S. Ct. 2319 (2019) precludes
the Government from charging attempted Hobbs
Act robbery as a predicate for a Section 924(c)
violation, the court grants Cheese’s motion.
A. Legal Standard
Section 924(c) defines a “crime of violence” as a
felony that:
(A) has as an element the use, attempted
use, or threatened use of physical force
against the person or property of another,
or
(B) that by its nature, involves a
substantial risk that physical force against
the person or property of another may be
used in the course of committing the
offense.

9a
18 U.S.C. § 924(c)(3). In Davis, the Supreme Court
held that Subsection B (“the Residual Clause”)
was unconstitutionally vague. 139 S. Ct. at 2336.
As a result, a “crime of violence” under
Section 924(c) must satisfy Subsection (A) such
that the crime “has as an element the use,
attempted use, or threatened use of physical
force.” 18 U.S.C. § 924(c)(3)(A) (“the Elements
Clause”).
The question before the court is whether
attempted Hobbs Act robbery satisfies the
Elements Clause. To answer that question, the
court uses the “categorical approach.” See United
States v. Hill, 890 F.3d 51, 55 (2d Cir. 2018), cert.
denied, 139 S. Ct. 844 (2019) (applying the
categorical approach to Hobbs Act robbery). The
categorical approach “involves two steps: first [the
court] identif[ies] the elements of the predicate
conviction by determining the minimum criminal
conduct a defendant must commit to be convicted;
second, [the court] determine[s] whether that
minimum criminal conduct has as an element the
use, attempted use, or threatened use of physical
force.” United States v. Moore, 916 F.3d 231, 240
(2d Cir. 2019). Determining the minimal conduct
necessary for conviction, “requires more than the
application of legal imagination to the statute’s
language.” Hill, 890 F.3d at 51 (quoting Gonzales
v. Duenas-Alvarez, 549 U.S. 183, 193 (2007)
(alterations adopted)). “To show that a particular
reading of the statute is realistic, a defendant
must at least point to his own case or other cases
in which the courts in fact did apply the statute in

10a
the manner for which he argues.” Id. (internal
quotation marks omitted) (alterations adopted).
The elements of attempt are straightforward: a
defendant must (a) have the intent to commit the
object crime and (b) engage in conduct amounting
to a substantial step towards its commission. See
United States v. Yousef, 327 F.3d 56, 134 (2d Cir.
2003). “[A] ‘substantial step’ must be something
more than mere preparation, yet may be less than
the last act necessary before the actual
commission of the substantive crime.” United
States v. Farhane, 634 F.3d 127, 147 (2d Cir.
2011) (quoting United States v. Manley, 632 F.2d
978, 987 (2d Cir. 1980) (internal quotation marks
omitted)).
B. Discussion
The Government argues that attempted Hobbs
Act robbery is a crime of violence “because it
requires proof of intent to commit all the elements
of the completed crime, Hobbs Act robbery, which
constitutes a crime of violence under the Elements
Clause.” (Gov’t Suppl. at 1-2). While at least one
Circuit has adopted the Government’s reasoning,
see United States v. Ingram, No. 19-1403, 2020
WL 253380, at *3 (7th Cir. Jan. 17, 2020), the
Second Circuit has not decided the issue, and
district courts in this circuit to consider the issue
have reached conflicting results. Compare United
States v. Jefferys, No. 18-CR-359 (KAM), 2019 WL
5103822 (E.D.N.Y. Oct. 11, 2019) (“[T]he Second
Circuit has . . . indicated that where a substantive
offense is a crime of violence under 924(c), an
attempt to commit that offense similarly qualifies

11a
under the elements clause.” (citations omitted));
and Crowder v. United States, No. 16-CV-4403
(CM), 2019 WL 6170417 (S.D.N.Y. Nov. 20, 2019)
(“[A] defendant who takes a ‘substantial step’
toward committing an inherently violent offense—
such as Hobbs Act robbery—has at least
‘attempted’ or ‘threatened’ the use of force within
the meaning of [Section 924(c)].”; with United
States v. Tucker, No. 18-CR-0119 (SJ), 2020 WL
93951, at *18-19 (E.D.N.Y. Jan. 8, 2020) (“[G]iven
the broad spectrum of attempt liability, the
elements of attempt to commit robbery could
clearly be met without any use, attempted use, or
threatened use of violence.” (citations and internal
quotations omitted)); and Lofton v. United States,
No. 04-CR-06063 (MAT), 2020 WL 362348, at *9
(W.D.N.Y. Jan. 22, 2020) (“[B]ecause attempted
Hobbs Act robbery does not categorically entail the
use, threatened use, or attempted use of force ... it
is not a crime of violence.”) (citations omitted)).
The court declines to adopt the Government’s
reasoning. The Government’s argument collapses
the distinction between acts constituting an
underlying offense and acts constituting an
attempt of the underlying offense, which does not
square with the Supreme Court’s decision in
Davis. Under Davis, the categorical analysis
requires examination of the “minimal criminal
conduct necessary for conviction under a
particular statute.” United States v. Hendricks,
921 F.3d 320, 327 (2d Cir. 2019). And, as the
Defendant notes (Mot. at 8-9), one can take a
“substantial step” towards committing attempted
Hobbs Act robbery without “the use, attempted

12a
use, or threatened use” of physical force. See, e.g.,
United States v. Gonzalez, 441 F. App’x 31, 26 (2d
Cir. 2011) (summary order) (finding evidence
sufficient to convict defendants of attempted
Hobbs
Act
robbery
where
“[D]efendants’
reconnoitering at the scene of the contemplated
crime while in possession of paraphernalia which,
under the circumstances, could serve no lawful
purpose (including a real firearm, a starter pistol,
and ski masks) constitute[d] a substantial step,
and amply corroborate[d] their criminal purpose”)
(citing United States v. Jackson, 560 F.2d 112,
120-21 (2d Cir. 1977)); United States v. Wrobel,
841 F.3d 450, 453-55 (7th Cir. 2016) (upholding
attempted Hobbs Act robbery conviction where
defendants planned robbery, traveled across state
lines for purpose of robbing a diamond merchant,
but were stopped by law enforcement before the
robbery was committed with hooded sweatshirts, a
black hat, three pairs of gloves, and a pry bar).
Because a defendant who takes a substantial step
in furtherance of Hobbs Act robbery can do so
without the use, threatened use, or attempted use
of force, attempted Hobbs Act robbery cannot be a
crime of violence under the categorical analysis.
See Tucker, 2020 WL 93951 at *18-19.
This holding logically follows from the Second
Circuit’s decision in Barrett that conspiracy to
commit Hobbs Act robbery is not a crime of
violence under Section 924(c). The Government
objects, arguing that the difference between
conspiracy and attempt is that, unlike conspiracy,
when a defendant attempts to commit Hobbs Act
robbery, he intends to use, threaten to use, or

13a
attempt to use force. (Opp. at 20; Gov’t Suppl. at
1). Yet, a defendant can be convicted of conspiracy
or attempt without using or attempting to use
force, even if he would have used (or attempted to
use) force had he completed the commission of the
offense. See Barrett, 937 F.3d at 128 (noting that
there was no doubt that the conspiracy planned by
Barrett and his co-conspirators—i.e., the acts
Barrett and his co-conspirators intended to do—
was “violent, even murderous”); Wrobel, 841 F.3d
at 455 (evidence that defendants “planned and
intended” to forcibly rob victim was sufficient to
support conviction for attempted Hobbs Act
robbery).
The Government argues that the Seventh
Circuit’s recent decision in Ingram “refutes the
defendant’s argument that there is no distinction
between conspiracy to commit Hobbs Act robbery
and attempt to commit Hobbs Act robbery.” (Gov’t
Suppl. at 1). To the contrary, Ingram merely
repeats the logic that where the underlying crime
is a crime of violence, an attempt to commit that
crime must also be a crime of violence, because
such an attempt “requires proof of intent to
commit all elements of the complete crime.” 2020
WL 253380, at *3. And, as discussed above, this
rule fails to meaningfully grapple with the
categorical approach. As Judge Jill Pryor on the
Eleventh Circuit previously explained:
We can easily imagine that a person may
engage in an overt act—in the case of
robbery, for example, overt acts might
include renting a getaway van, parking the

14a
van a block from the bank, and
approaching the bank’s door before being
thwarted—without having used, attempted
to use, or threatened to use force. Would
this would-be robber have intended to use,
attempt to use, or threaten to use force?
Sure. Would he necessarily have attempted
to use force? No.

United States v. St. Hubert, 918 F.3d 1174, 1212

(11th Cir. 2019) (J. Pryor, dissenting from denial
of rehearing en banc).

Finally, the Government contends that the
Elements Clause defines a crime of violence as one
that “has as an element . . . attempted use . . . of
physical force.” See Govt. Opp. at 20 (quoting 18
U.S.C. § 924(c)(3)(A)); see also Simmons v. United
States, No. 08-CR-1133 (AKH), 2019 WL 6051443
at *4 (S.D.N.Y. Nov. 15, 2019) (“Section 924(c)
expressly includes ‘attempted use’ of force in its
definition.”). However, the fact that the Elements
Clause includes the words “attempted use” of force
does not change the fact that nothing requires the
Government to prove that a defendant actually
attempted to use force (through his conduct, not
merely his intention) to convict that defendant of
attempted Hobbs Act robbery. To the contrary,
there is “minimum criminal conduct” that would
suffice for such a conviction that does not merely
his intention) to convict that defendant of
attempted Hobbs Act robbery. To the contrary,
there is “minimum criminal conduct” that would
suffice for such a conviction that does not involve
the “use, attempted use, or threatened use” of

15a
force. See Lofton, 2020 WL 362348, at *8
(discussing cases in which sufficient evidence
existed for attempted Hobbs Act robbery in the
absence of “the use, attempted use, or threatened
use” of physical force).
Ultimately, the Government’s position is at
odds with the principle outlined in Davis that
inchoate crimes—such as conspiracy or attempt—
cannot be crimes of violence under the Elements
Clause because they do not require as an element
of the offense the use, attempted use, or
threatened used of force. Accordingly, Cheese’s
motion to dismiss Count Twelve is granted, and
Counts Eight, Ten, Twelve, and Fourteen are
dismissed as to all Defendants.
III. CHEESE’S
S MOTION TO SEVER
Cheese also moves for severance under Rule
8(b), or, in the alternative, Rule 14, of the Federal
Rules of Criminal Procedure.
A. Legal Standard
Rule 8 of the Federal Rules of Criminal
Procedure governs the joinder of multiple counts
and multiple defendants in a single indictment.
Under Rule 8(b), multiple defendants who
allegedly “participated in the same act or
transaction, or in the same series of acts or
transactions, constituting an offense or offenses”
may be charged in a single indictment. Fed. R.
Crim. P. 8(b). Furthermore, the “defendants may
be charged in one or more counts together or
separately,” and “[a]ll defendants need not be

16a
charged in each count.” Id. Rule 8(b) does not
require a common goal or conspiracy, but rather
“requires only that the counts be connected by
common facts or participants or that they arise out
of a common plan or scheme.” United States v.
Ferrarini, 9 F. Supp 2d. 284, 292 (S.D.N.Y. 1998)
(citing United States v. Attanasio, 870 F.2d 809,
815 (2d Cir. 1989)); see also United States v.
Rittweger, 524 F.3d 171, 177 (2d Cir. 2008) (“[W]e
apply . . . a ‘commonsense rule’ to decide whether,
in light of the factual overlap among charges, joint
proceedings would produce sufficient efficiencies
such that joinder is proper notwithstanding the
possibility of prejudice to either or both the
defendants resulting from joinder.”) (citations
omitted). And as the Supreme Court has observed,
“[t]here is a preference in the federal system for
joint trials of defendants who are indicted
together.” Zafiro v. United States, 506 U.S. 534,
537 (1993); see also id. (“Joint trials . . . promote
efficiency and serve the interests of justice by
avoiding the scandal and inequity of inconsistent
verdicts.” (quoting Richardson v. Marsh, 481 U.S.
200, 209 (1987) (internal quotation marks
omitted))).
Under Rule 14 of the Federal Rules of Criminal
Procedure, however, if “consolidation for trial
appears to prejudice a defendant . . . the court may
order separate trials of counts, sever the
defendants’ trials, or provide any other relief that
justice requires.” Fed. R. Crim. P. 14(a). “In order
to succeed on a motion for severance, a defendant
must show that the prejudice from a joint trial is
sufficiently severe to outweigh the judicial

17a
economy that would be realized by avoiding
multiple lengthy trials.” United States v.
Defreitas, 701 F. Supp. 2d 309, 316 (E.D.N.Y.
2010) (quoting United States v. Walker, 142 F.3d
103, 110 (2d Cir. 1998) (internal quotation marks
omitted)); see also United States v. Cardascia, 951
F.2d 474, 482-83 (2d Cir. 1991) (noting that the
risk of prejudice is generally outweighed by
concerns about judicial economy, the risk of
inconsistent verdicts, and the favorable position
that later-tried defendants obtain from familiarity
with prosecution strategy). Thus, defendants
seeking severance must show “not simply some
prejudice, but substantial prejudice.” United
States v. Sampson, 385 F.3d 183, 190 (2d Cir.
2004) (quoting United States v. Werner, 620 F.2d
922, 928 (2d Cir. 1980) (internal quotation marks
omitted)); see also Walker, 142 F.3d at 110
(describing defendants’ burden as “heavy”). The
decision regarding whether to sever the
defendants’ trial is a matter committed to the
“sound discretion” of the district court and is
“virtually unreviewable.” United States v. James,
712 F.3d 79, 104 (2d Cir. 2013) (citation omitted).
B. Discussion
Joinder of Cheese with the other defendants in
this case was proper under Rule 8. While it is true
that Cheese did not participate in any additional
robberies for which his co-defendants have been
indicted, the robbery Cheese is alleged to have
been involved with and the other robberies
enumerated in the indictment plainly are “unified
by some substantial identity of facts or

18a
participants, or arise out of a common plan or
scheme.” Rittweger, 524 F.3d at 177. Namely, all
the robberies charged in the indictment are “home
invasion robberies of either purported drug stash
houses or jewelry store owners where coconspirators brandished firearms and caused
physical injury to victims.” (Opp. at 11.) Therefore,
joinder under Rule 8(b) was proper.
Cheese argues, however, that the court should
nonetheless sever his trial under Rule 14 because
of the risk of substantial spillover prejudice. (See
Mot. at 13.) According to Cheese, a joint trial
would result in “significant amounts of evidence
admitted against [Cheese’s] new co-defendants
that would otherwise be inadmissible against Mr.
Cheese.” (Id. at 14). Such evidence might include
information about the Bloods street gang (of which
many of Cheese’s co-defendants are alleged to
have been members) and the other eleven
robberies with which Mr. Cheese has not been
charged. (Id.)
Yet, courts have long held that “the fact that
evidence may be admissible against one defendant
but not another does not necessarily require a
severance.” Spinelli, 352 F.3d at 56 (quoting
United States v. Carson, 702 F.3d 351, 367 (2d
Cir. 1983) (internal quotation marks omitted)). In
addition, to the extent a risk of spillover prejudice
exists, the court is confident that an explicit
limiting instruction to the jury will “cure any risk
of prejudice.” Zafiro, 506 U.S. at 539; see also
Rittweger, 524 F. 3d at 179 (finding no prejudice
where “the district court gave limiting instructions

19a
throughout the trial explaining when evidence
could not be considered against a particular
defendant, and the jury charge carefully explained
that the jurors must consider the case against
each defendant separately”); United States v.
Diaz, 176 F.3d 52, 104 (2d Cir. 1999) (“[E]ven
when the risk of prejudice is high, measures ...
such as limiting instructions, often will suffice to
cure any risk of prejudice” (internal quotations
omitted)). The court therefore declines Cheese’s
invitation to sever his trial.
C. Motion to Sever – Speedy Trial Act
Cheese next argues that severance is
warranted because any delay in his trial after the
court decides the instant motions would be
unreasonable under the Speedy Trial Act, 18
U.S.C. § 3161.
1. Legal Background
The Speedy Trial Act (the “Act”) provides
detailed time limits within which prosecutors
must bring a criminal case to trial. The Act
“requires that a defendant’s trial begin within
seventy days of his indictment or his first
appearance before a judicial officer, whichever is
later.” United States v. Holley, 813 F.3d 117, 120
(2d Cir. 2016) (citing 18 U.S.C. § 3161(c)(1)). The
Act, however, sets forth certain periods of delay
that “shall be excluded” from the seventy-day
speedy trial clock, including “[a] reasonable period
of delay when the defendant is joined for trial with
a co-defendant as to whom the time for trial has

20a
not run and no motion for severance has been
granted.” 18 U.S.C. § 3161(h)(6).
The Second Circuit has held that in the
absence of severance, any excludable delay as to
one defendant applies to all co-defendants, such
that the case is governed by a single speedy trial
clock. See United States v. Pena, 793 F.2d 486,
489 (2d Cir. 1986) (“[D]elay attributable to any
one defendant is charged against the single clock,
thus making the delay applicable to all
defendants.”) (citing United States v. Piteo, 726
F.2d 50, 52 (2d Cir. 1983)). A claim of
unreasonable speedy trial delay attributable to codefendants under § 3161(h)(6) is considered in
light of the congressional intent “to make sure
that [the Act] does not alter the present rules on
severance of codefendants by forcing the
Government to prosecute the first defendant
separately or to be subject to a speedy trial
dismissal motion under Section 3161.” Pena, 793
F.2d at 489 (citing S. Rep. No. 1021, 93d Cong., 2d
Sess. 38 (1974)); see also United States v. Stone,
No. 05-CR-401 (ILG), 2006 WL 436012, at *6
(E.D.N.Y. Feb. 22, 2006).
Given the court’s denial of Cheese’s motion to
sever, the court considers whether the delay
attributable
to
Cheese’s
co-defendants
is
reasonable. Cheese argues that he has thus far
waited 19 months for his case to be brought to
trial, and that any further delay after the court
decides the instant motions to set a trial date
would not be reasonable. (See Mem. at 17.)
However, at no time between the Original

21a
Indictment and the filing of the instant motions
has Cheese asked for a trial date, and he has
consented to every request for exclusion of time
under the Act (for, inter alia, discovery
proceedings, plea negotiations, and motion
practice) until January 23, 2020. The court thus
finds that, barring an unforeseen change in
circumstances, any delay between January 23,
2020—the date at which any relevant delay for
speedy trial purposes would begin—and a date
that would accommodate a joint trial with
Cheese’s co-defendants is reasonable and justified
in light of the complexity of the case and the
joinder of defendants. See United States v.
Minaya, 395 F. Supp. 2d 28, 41 (S.D.N.Y. 2005)
(denying motion to sever and noting that “[i]n any
multi-defendant case . . . it is almost inevitable
that the period of pre-trial detention will be longer
than in an action involving only one defendant”).
Therefore, Cheese’s motion to sever is denied.
IV. CHEESE’S
S PRO SE MOTIONS TO DISMISS
THE INDICTMENT
Cheese has also filed pro se motions seeking to
dismiss the Superseding Indictment. (See Def. Pro
Se Mot; & Am. Def Pro Se Mot.)
The court has reviewed Cheese’s pro se filings
and finds that they are without merit. Cheese
contends that the Government’s decision to drop
the Hobbs Act robbery conspiracy charge in the
Superseding
Indictment
and
include
the
attempted Hobbs Act robbery charge unduly
influenced the grand jury. As the Government
notes, however, it is well established that “the

22a
decision whether or not to prosecute, and what
charge to file or being before a grand jury,
generally rests entirely in [the prosecutor’s]
discretion.” Opp. at 21 (quoting Bordenkircher v.
Hayes, 434 U.S. 357, 364 (1978)). Cheese’s motions
fail to demonstrate how the Government’s decision
to drop the conspiracy charge actually prejudiced
him. Cheese argues that leaving out the “critical
Hobbs Act [C]onspiracy [charge] [deprives him of]
the benefit of [sic] newly decided Supreme Court’s
[Davis] case.” (Pro Se Mot. at 1.) Yet, Davis only
speaks to what crimes can serve as predicates for
§ 924(c), it does not preclude the indictment either
for conspiracy or attempt to commit Hobbs Act
robbery. Cheese also asserts that the court should
either dismiss the indictment or conduct in camera
review of the grand jury minutes because there
“exists grave doubt whether the decision to indict
was free from substantial influence of this false
information.” (Am. Pro Se Mot.). Again, however,
Cheese fails to show how the Government erred in
its legal instructions to the grand jury. See United
States v. Forde, 740 F. Supp. 2d 406, 414
(S.D.N.Y. 2010) (“Mere speculation that . . . the
Government may have improperly instructed the
grand jury . . . falls far short of the showing to
overcome the presumption of secrecy.” (citations
omitted)). Accordingly, Cheese’s pro se motions are
denied.

23a
V. CONCLUSION
For the foregoing reasons, Cheese’s (Dkt. 189)
Motion to Dismiss Count Twelve of the
Superseding Indictment and Motion to Sever is
GRANTED IN PART and DENIED IN PART.
Cheese’s Motion to Dismiss Count Twelve is
GRANTED, and Count Twelve is DISMISSED as
to all Defendants. Because Counts Eight, Ten, and
Fourteen suffer the same constitutional infirmity
as Count Twelve, they are likewise DISMISSED
as to all Defendants. Cheese’s (Dkts. 67; 192) pro
se Motions to Dismiss the Indictment are
DENIED.

SO ORDERED.

/s/ Nicholas G. Garaufis
NICHOLAS G. GARAUFIS
United States District Judge
Dated: Brooklyn, New York
February 12, 2020

24a
APPENDIX C
RELEVANT STATUTORY PROVISIONS
18 U.S.C. § 924
§ 924. Penalties
* * *
(c)(1)(A) Except to the extent that a greater
minimum sentence is otherwise provided by this
subsection or by any other provision of law, any
person who, during and in relation to any crime of
violence or drug trafficking crime (including a
crime of violence or drug trafficking crime that
provides for an enhanced punishment if committed
by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in
a court of the United States, uses or carries a
firearm, or who, in furtherance of any such crime,
possesses a firearm, shall, in addition to the
punishment provided for such crime of violence or
drug trafficking crime—
(i) be sentenced to a term of imprisonment of
not less than 5 years;
(ii) if the firearm is brandished, be sentenced to
a term of imprisonment of not less than 7 years;
and
(iii) if the firearm is discharged, be sentenced to
a term of imprisonment of not less than 10
years.

25a
(B) If the firearm possessed by a person convicted
of a violation of this subsection—
(i) is a short-barreled rifle, short-barreled
shotgun, or semiautomatic assault weapon, the
person shall be sentenced to a term of
imprisonment of not less than 10 years; or
(ii) is a machinegun or a destructive device, or
is equipped with a firearm silencer or firearm
muffler, the person shall be sentenced to a term
of imprisonment of not less than 30 years.
(C) In the case of a violation of this subsection
that occurs after a prior conviction under this
subsection has become final, the person shall—
(i) be sentenced to a term of imprisonment of
not less than 25 years; and
(ii) if the firearm involved is a machinegun or a
destructive device, or is equipped with a
firearm silencer or firearm muffler, be
sentenced to imprisonment for life.
(D) Notwithstanding any other provision of law—
(i) a court shall not place on probation any
person convicted of a violation of this
subsection; and
(ii) no term of imprisonment imposed on a
person under this subsection shall run
concurrently
with
any
other
term
of
imprisonment imposed on the person, including
any term of imprisonment imposed for the

26a
crime of violence or drug trafficking crime
during which the firearm was used, carried, or
possessed.
(2) For purposes of this subsection, the term “drug
trafficking crime” means any felony punishable
under the Controlled Substances Act (21 U.S.C.
801 et seq.), the Controlled Substances Import and
Export Act (21 U.S.C. 951 et seq.), or chapter 705
of title 46.
(3) For purposes of this subsection the term “crime
of violence” means an offense that is a felony
and—
(A) has as an element the use, attempted use,
or threatened use of physical force against the
person or property of another, or
(B) that by its nature, involves a substantial
risk that physical force against the person or
property of another may be used in the course
of committing the offense.
(4) For purposes of this subsection, the term
“brandish” means, with respect to a firearm, to
display all or part of the firearm, or otherwise
make the presence of the firearm known to
another person, in order to intimidate that person,
regardless of whether the firearm is directly
visible to that person.
(5) Except to the extent that a greater minimum
sentence is otherwise provided under this
subsection, or by any other provision of law, any
person who, during and in relation to any crime of

27a
violence or drug trafficking crime (including a
crime of violence or drug trafficking crime that
provides for an enhanced punishment if committed
by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in
a court of the United States, uses or carries armor
piercing ammunition, or who, in furtherance of
any such crime, possesses armor piercing
ammunition, shall, in addition to the punishment
provided for such crime of violence or drug
trafficking crime or conviction under this section—
(A) be sentenced to a term of imprisonment of
not less than 15 years; and
(B) if death results from the use of such
ammunition—
(i) if the killing is murder (as defined in
section 1111), be punished by death or
sentenced to a term of imprisonment for any
term of years or for life; and
(ii) if the killing is manslaughter (as defined
in section 1112), be punished as provided in
section 1112.
* * *

28a
18 U.S.C. § 1951
§ 1951. Interference with commerce by threats or
violence
(a) Whoever in any way or degree obstructs,
delays, or affects commerce or the movement of
any article or commodity in commerce, by robbery
or extortion or attempts or conspires so to do, or
commits or threatens physical violence to any
person or property in furtherance of a plan or
purpose to do anything in violation of this section
shall be fined under this title or imprisoned not
more than twenty years, or both.
(b) As used in this section—
(1) The term “robbery” means the unlawful
taking or obtaining of personal property from
the person or in the presence of another,
against his will, by means of actual or
threatened force, or violence, or fear of injury,
immediate or future, to his person or property,
or property in his custody or possession, or the
person or property of a relative or member of
his family or of anyone in his company at the
time of the taking or obtaining.
(2) The term “extortion” means the obtaining of
property from another, with his consent,
induced by wrongful use of actual or threatened
force, violence, or fear, or under color of official
right.
(3) The term “commerce” means commerce
within the District of Columbia, or any

29a
Territory or Possession of the United States; all
commerce between any point in a State,
Territory, Possession, or the District of
Columbia and any point outside thereof; all
commerce between points within the same
State through any place outside such State; and
all other commerce over which the United
States has jurisdiction.
(c) This section shall not be construed to repeal,
modify or affect section 17 of Title 15, sections 52,
101-115, 151-166 of Title 29 or sections 151-188 of
Title 45.

